   June 4, 2003




Financial Management

Accounting for Reimbursable Work
Orders at Defense Finance and
Accounting Service Charleston
(D-2003-095)




       Office of the Inspector General
                    of the
           Department of Defense

                                   Constitution of
                                  the United States

   A Regular Statement and Account of the Receipts and Expenditures of all public
   Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ASN(FM&C)             Assistant Secretary of the Navy (Financial Management and
                         Comptroller)
DFAS                  Defense Finance and Accounting Service
RSC                   Reimbursable Source Code
RWO                   Reimbursable Work Order
STARS-FL              Standard Accounting and Reporting System-Field Level
          Office of the Inspector General of the Department of Defense
Report No. D-2003-095                                                       June 4, 2003
 (Project No. D2001FC-0138.001)
           Accounting for Reimbursable Work Orders at Defense
               Finance and Accounting Service Charleston

                                  Executive Summary

Who Should Read This Report and Why? This report should be read by the
Department of the Navy (Navy) major claimants and fund administrators served by the
Defense Finance and Accounting Service (DFAS) Charleston. DFAS Charleston account
managers who are responsible for managing reimbursable work orders for Navy, and
DFAS Cleveland accountants who rely on the data could also benefit from the
information in the report. The report discusses how to prevent and correct negative
account balances, over obligations, and over expenses for reimbursable work orders.

Background. The audit was performed in response to Public Law 101-576, the “Chief
Financial Officers Act of 1990,” November 15, 1990, as amended. DFAS Charleston
was established on February 23, 1995, to perform disbursing and accounting
responsibilities primarily for Navy General and Working Capital Fund activities. DFAS
Charleston Accounting Division performed accounting services for 469 Navy field
activities under 20 of the 23 Navy major claimants using the on-line accounting system,
Standard Accounting and Reporting System-Field Level.

Results. The DFAS Charleston July 31, 2001, accounts receivable balance included
706 negative balances totaling $73.4 million. The negative $73.4 million reduced the net
balance of accounts receivable to $85.4 million. As a result, the accounts receivable,
unearned revenue, and expense balances were not properly stated in the trial balances that
DFAS Charleston submitted to DFAS Cleveland. This ultimately impacted assets and
liabilities on the Navy General Fund monthly departmental reports and year-end financial
statements (finding A).

The DFAS Charleston July 31, 2001, unearned revenue balance included 315 segment-
level negative balances totaling $9 million. The negative $9 million reduced the net
balance of unearned revenue to $3.1 million. As a result, the unearned revenue balances
were not properly stated in the trial balances that DFAS Charleston submitted to DFAS
Cleveland. The negative balances ultimately impacted liabilities on the Navy General
Fund monthly departmental reports and year-end balance sheet (finding B).

Reimbursable work orders were obligated and expensed beyond the funding authorized in
the reimbursable work order agreement. As a result, unauthorized and uncollectible
accounts receivable balances were on the trial balances that DFAS Charleston submitted
to DFAS Cleveland. This ultimately overstates assets and income on the Navy General
Fund monthly departmental reports and year-end financial statements (finding C).

See Appendix A for details on the management control program as it relates to negative
accounts receivable balances, negative unearned revenue balances, and over obligated
and expensed reimbursable work orders.
Management Comments and Audit Response. The Assistant Secretary of the Navy,
Financial Management and Comptroller (ASN[FM&C]) concurred in principle with the
recommendations. The Director, DFAS Cleveland concurred or partially concurred with
seven of the draft recommendations, and nonconcurred with four. In response to
management comments, we revised three draft recommendations and deleted one.

We revised the draft recommendation to DFAS Cleveland to clarify the proper
accounting classification of cash collections that exceed the billed and/or expensed
amount for reimbursable work orders.

DFAS Cleveland nonconcurred with the draft recommendation to prevent Navy fund
administrators from transferring expense amounts that exceed the expenses incurred. The
DFAS comments were not responsive. DFAS is responsible for establishing controls in
its systems that will help the customer, the Navy, to comply with finance and accounting
requirements. We request additional comments on this issue from DFAS Cleveland.

We deleted the draft recommendation to DFAS Cleveland to establish system edit
checks, and accepted the actions proposed by DFAS Cleveland to initiate a review,
identify the negative unearned revenue balances, and notify Navy fund administrators of
the erroneous entries.

We also revised the draft recommendation to the ASN(FM&C) to clarify that the Navy
holds the ultimate responsibility to ensure that there is sufficient funding authority before
creating any obligations. The fact that there are any over obligated segments is
significant and indicates an internal control problem. Over obligating beyond the
funding authority at any dollar amount can lead to a violation of the Antideficiency Act.
We request additional comments on this issue from the ASN(FM&C).

Although DFAS Cleveland nonconcurred with the draft recommendation to establish
system edit checks, DFAS Cleveland proposed to assist the Navy in developing and
implementing new methodology regarding over obligations. We revised the
recommendation accordingly. The proposed action was responsive to the intent of the
recommendation.

Although DFAS Cleveland partially concurred with the draft recommendation to perform
various reviews of account data, DFAS Cleveland proposed to provide the Navy fund
administrators with a monthly list of all over obligated and expensed reimbursable work
orders. The proposed action was responsive to the intent of the recommendation.

We request additional comments on the final report by July 7, 2003. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.




                                              ii
Table of Contents

Executive Summary                                                              i


Introduction
     Background                                                               1
     Objectives                                                               2

Findings
     A. Reimbursable Work Order Segments With Negative Receivable
          Balances                                                            3
     B. Cash Up-Front Reimbursable Work Order Segments with Negative
          Unearned Revenue Balances                                            9
     C. Over Obligated and Expensed Reimbursable Work Order Segments          11

Appendixes
     A. Scope and Methodology                                                 14
           Management Control Program Review                                  15
           Prior Coverage                                                     15
     B. Illustration of a Transfer of Expenses Between Segments               16
     C. Report Distribution                                                   18

Management Comments
     Assistant Secretary of the Navy (Financial Management and Comptroller)   21
     Defense Finance and Accounting Service                                   24
Background
    Chief Financial Officers Act. This audit was performed in response to Public
    Law 101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990, as
    amended.

    Role of Defense Finance and Accounting Service Charleston. Defense
    Finance and Accounting Service (DFAS) Charleston was established on
    February 23, 1995, to perform disbursing and accounting responsibilities
    primarily for Department of the Navy (Navy) General and Working Capital Fund
    activities. The DFAS Charleston Accounting Division performed accounting
    services for 469 Navy field activities organized under 20 of the 23 Navy major
    claimants, using an on-line accounting system known as the Standard Accounting
    and Reporting System-Field Level (STARS-FL). After the close of each
    accounting month, and at fiscal year-end, DFAS Charleston electronically
    transfers trial balance data to DFAS Cleveland to be used in preparing the Navy
    departmental reports and financial statements.

    Reimbursable Work Order Agreements. Reimbursable work orders (RWO)
    are authorized by section 1535, title 31, United States Code (31 U.S.C. 1535) and
    are written agreements between Components of the Federal Government. The
    RWO states the requirements to perform the work or services by the recipient of
    the order (performer) with ultimate payment to be made by the issuer of the order
    (grantor). When the grantor does not have the in-house expertise to acquire or
    perform a required good or service (e.g. utilities, communications, or specialized
    technical work), it issues an RWO to an outside activity to obtain the good or
    service. The RWO agreement specifies the funding authorized by the grantor,
    work to be done, and other terms of the agreement. DFAS Charleston accounted
    for two types of RWO agreements: payment made in advance of the work
    performed (cash up-front), and payment made as the work was performed. When
    the RWO agreement is cash up-front, the performer financial records reflect
    unearned revenue for the amount received in advance. The performer earns the
    revenue as the RWO is satisfied. When the grantor does not pay for the RWO in
    advance, the performer financial records reflect an accounts receivable
    (receivable) for the amount incurred to perform the RWO work, and bills the
    grantor.

    Establishing RWOs in STARS-FL. DFAS Charleston customers, who were
    Navy fund administrators for the Navy field activities, had more than
    6,000 RWOs with outstanding receivable and unearned revenue balances
    accounted for in DFAS Charleston STARS-FL tables. The Navy fund
    administrator establishes the RWO in STARS-FL, entering the segment number
    (segment) and the reimbursable source code (RSC). The segment is a mandatory
    field in STARS-FL that the Navy fund administrator uses to identify a specific
    RWO. Only one segment is assigned for each RWO. The RSC identifies an
    RWO as cash up-front or as a receivable. In addition to establishing the RWOs in
    STARS-FL, the Navy fund administrator establishes and obligates the funding
    authority for the RWO. Other transactions related to the RWOs, including the


                                         1
    entering of expenses, receivables, and collections, are performed either
    automatically by the accounting systems or manually by DFAS Charleston
    accountants.

    Calculating Reimbursable Balances. DFAS Charleston queried STARS-FL
    tables for the authorized, obligated, expensed, billed, and collected RWO
    amounts. Those amounts were used to calculate the outstanding receivable and
    unearned revenue balances. The unearned revenue balances were for each cash
    up-front RWO. The receivable and unearned revenue balance equations are as
    follows.

           •   Expensed amount - billed amount = balance of receivables not billed.

           •   Billed amount - collected amount = balance of receivables billed.

           •   Collected amount - expensed amount = unearned revenue balance.


Objectives
    The overall audit objective was to determine the reliability and effectiveness of
    processes and procedures used by DFAS to prepare Navy General Fund financial
    statements. We focused on the reliability and controls over financial data
    processed and submitted by DFAS Charleston for financial reporting. We also
    reviewed the management control program as it related to the objective.
    Appendix A discusses the audit scope and methodology, the review of the
    management control program related to the audit objective, and prior coverage.




                                        2
           A. Reimbursable Work Order Segments
              With Negative Receivable Balances
           The DFAS Charleston July 31, 2001, receivable balance included
           706 segment-level erroneous negative balances totaling $73.4 million.
           The negative $73.4 million reduced the net balance of accounts receivable
           to $85.4 million. The negative balances occurred because:

                  •   Navy fund administrators miscoded RSCs as receivable when
                      they should have been coded as cash up-front when the RWO
                      was established in STARS-FL;

                  •   Navy fund administrators inappropriately transferred expenses
                      between RWO segments;

                  •   DFAS entered erroneous data, such as double postings, in
                      STARS-FL; and

                  •   DFAS did not refund overpayments to the grantor.

           The negative balances remained in some of the accounting records for
           years because DFAS Charleston and the Navy did not have an adequate
           process to correct negative receivable balances. As a result, the
           receivable, fund balance with treasury, unearned revenue, income, and
           expense balances were not properly stated in the trial balances that DFAS
           Charleston submitted to DFAS Cleveland. The negative balances
           ultimately impacted assets and liabilities on the Navy General Fund
           monthly departmental reports and year-end financial statements.


Guidance for Financial Reporting
    DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
    volume 6A, “Reporting Policies and Procedures,” chapter 2, “Departmental
    Financial Reports Roles and Responsibilities,” February 1996 (with changes
    through 2001), requires DFAS to review financial reports for negative balances.
    DFAS is required to identify deficiencies, initiate research, and when possible,
    coordinate with customers to correct the deficiencies.


Receivable in DFAS Charleston
    The net receivable balance at DFAS Charleston as of July 31, 2001, was
    $85.4 million. We queried the STARS-FL system to obtain the detail receivable
    balances at the segment level. The detail revealed that 706 segments had
    erroneous negative balances totaling $73.4 million. We used the detail receivable
    listings from our queries to judgmentally select 24 RWO segments that had

                                        3
negative receivable balances. We provided our selections to DFAS Charleston
accounting personnel and requested all available data relating to each selected
item, to include a copy of the RWO agreement, bills sent, and evidence of cash
collected. The results of our review of the selected items are summarized and
discussed in Table 1.

       Table 1. Review of Negative Receivable Balances
 Number of
 Segments             Reasons for Negative Receivable Balances
     2     Navy fund administrator miscoded RSC as Receivable
     7     Navy fund administrator inappropriately transferred expenses
           between RWO segments
     5     DFAS entered erroneous data in STARS-FL
     7     DFAS did not refund overpayments to the grantor
     3     No documentation was available because the performing activity
           closed
    24


RSC Coding. Two of the selected negative receivable balances occurred because
the Navy fund administrator designated the RSC as a receivable instead of cash
up-front. In those instances, the grantor paid the agreed-upon amount in advance
before any obligations were established or expenses were incurred for the RWO.
This yielded a negative receivable balance because the amount paid exceeded the
billed and expensed amount. The initial cash collection would have yielded an
unearned revenue normal balance if the fund administrator coded the RSC
correctly as cash up-front. STARS-FL should have system controls that would
account for cash collections that exceed the billed and/or expensed amount as
unearned revenue when an RSC was miscoded as a receivable instead of cash
up-front.

Expenses Transferred Between Segments. Seven of the selected negative
receivable balances occurred because Navy fund administrators transferred
expenses between segments before expenses were incurred. The Navy fund
administrators’ process established a single segment to track expenses for
individual purchases funded by many grantors. As a result, the receivable balance
was negative and remained negative until the expenses were incurred. For a more
technical explanation of this complex process, see Appendix B. STARS-FL did
not have system controls to prevent a Navy fund administrator from transferring
expenses that had not yet been incurred. If STARS-FL had such controls, the
expensed amount in the segment would not have been negative.

STARS-FL Entries. Five of the selected negative balances occurred because
DFAS entered erroneous data in STARS-FL. Those errors consisted of double
postings and incorrect data entry when the transaction was entered into the
system. For example, DFAS Charleston posted a cash collection twice, resulting
in a negative receivable balance because the collected amount exceeded the billed
amount. STARS-FL did not have system controls to prevent such erroneous


                                    4
     entries from posting. A single cash collection could not be posted twice if
     STARS-FL had a system control that would not post a cash collection that
     exceeded the billed or expensed amount.

     Refund Due the Grantor. Seven of the selected negative balances occurred
     because the grantor paid an excessive amount and DFAS Charleston did not
     refund the overpayment. In those cases, the cash collected was greater than the
     expensed amount. Those overpayments would not have posted if STARS-FL had
     system controls to prevent the collected amount from exceeding the expensed
     amount.

     RWO Documentation. We could not determine the cause for three of the
     negative balances we selected because DFAS Charleston and the Navy fund
     administrator did not have adequate documentation to support the RWO. The
     documentation was not available because the performing activity was closed and
     the gaining activity responsible for the funding did not receive RWO
     documentation. When outstanding receivable balances are associated with these
     closed activities, the performing activity should have provided RWO
     documentation to both the gaining Navy activity and to DFAS Charleston. DFAS
     Charleston did not have operating procedures to provide the accountants access to
     outstanding RWO documentation from activities before they were closed.


Collection Efforts for Receivables
     More than 50 percent of the outstanding balances in the detail receivable listing
     were from appropriations that were a minimum of 1 year old, and 13 percent were
     a minimum of 5 years old. DFAS Charleston had an aged receivable listing that
     only went back to October 1999; therefore, we were not able to quantify the aging
     categories before FY 2000. DFAS Charleston and the Navy did not research and
     correct outstanding receivable balances in a timely manner. Researching the
     outstanding balances would have helped DFAS Charleston collect the outstanding
     receivable balances and would have helped identify and correct the outstanding
     negative balances.


Financial Impact
     DFAS Charleston provided DFAS Cleveland accounting information to create the
     monthly Navy departmental reports and the year-end financial statements. The
     accounting information included all of the negative balances. As a result, those
     receivable, expense, fund balance with treasury, and unearned revenue balances
     were not properly stated. This brings into question the validity of the data Navy
     managers use for decision-making purposes. Refer to Table 2 for the effect each
     respective cause had on the departmental reports and financial statements.




                                          5
                Table 2. Effect of Negative Receivable Balances
                                                  Effect on Departmental Reports
        Causes of Negative Balances                  and Financial Statements
        RSC miscoded as receivable       Unearned revenue (liability) understated
                                         Receivable (asset) understated
    Expenses inappropriately transferred Receivable (asset) understated
         between RWO segments            Expense understated
            Erroneous entries            Receivable (asset) understated
                                         Fund Balance With Treasury (asset) overstated
          Refund due the grantor         Receivable (asset) understated
                                         Fund Balance With Treasury (asset) overstated



Summary
    Navy fund administrators did not effectively implement RWO accounting
    processes, which resulted in negative receivable balances at the segment level.
    Improved internal controls and operating procedures would have prevented most
    of the negative balances discussed in this finding. The system controls in
    STARS-FL did not prevent negative receivable balances. DFAS Charleston did
    not have operating procedures to provide its accountants access to RWO
    documentation from activities with outstanding balances before the activity
    closed. Implementing the recommendations in this finding should help improve
    the financial data at DFAS Charleston and ultimately improve the Navy
    departmental and year-end financial reports. In addition, improved system
    controls in the systems that process RWO transactions will help maximize the
    efficiency of RWO accounting and also allow DFAS accountants more time to
    focus on receivable collection efforts.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. As a result of discussions with management, we
    revised draft Recommendation A.2.a. to recognize cash collections that exceed
    the billed and/or expensed amount as unearned revenue.

    A.1. We recommend that the Assistant Secretary of the Navy (Financial
    Management and Comptroller) develop business practices for Navy fund
    administrators to properly account for reimbursable work orders. The
    business practices should require the Navy to:




                                        6
      a. Provide training to Navy fund administrators on the proper use of
reimbursable source codes.

      b. Develop methodology and provide guidance to facilitate the proper
accounting for expenses for individual purchases funded by multiple
grantors.

Management Comments. The ASN(FM&C) concurred in principle stating that
the Under Secretary of Defense (Comptroller) memo of July 30, 2002, established
a Department of Defense accounts receivable working group to document the
process, to ensure all accounts receivable are properly recorded, to standardize the
accounts receivable process and to recommend changes in policy and procedures.
In addition, the Navy acknowledged that DFAS is conducting a similar review of
all 26 DFAS field locations. The working groups are also evaluating training. At
the completion of the reviews and training evaluations, the Navy will address the
guidance and training required to accurately and timely record accounts
receivable.

Audit Response. The comments from the ASN(FM&C) are responsive.

A.2. We recommend that the Director, Defense Finance and Accounting
Service Cleveland establish system edit checks that align with the business
practices of the Navy and:

       a. Post cash collections that exceed the billed and/or expensed amount
for reimbursable work orders, not coded as cash up-front, as unearned
revenue until the transactions are researched and can be properly posted.

       b. Prevent Navy fund administrators from transferring expenses to
the extent that the transfer amount would exceed the expenses incurred up to
that point.

Management Comments. The Director, DFAS Cleveland nonconcurred. DFAS
recognized a problem with incorrectly coded reimbursable work orders and
created a system change request that is awaiting approval. The system change
request would allow users to change incorrectly coded reimbursable source codes.
However, DFAS stated that they did not agree with delaying the posting of cash
collections that exceed the billed and/or expensed amount. DFAS proposed an
alternative corrective action to post the cash collection as unearned revenue
instead of as a negative receivable. DFAS also stated that transferring expenses is
a Navy fund administrator practice and recommendations should be addressed to
the ASN(FM&C).

Audit Response. The actions proposed by DFAS satisfy the intent of
Recommendation A.2.a. The erroneous entries to accounts receivable identified
in this finding create inaccurate financial data for reporting purposes. During
discussions with DFAS regarding the management comments, we agreed to revise
our recommendation to post the cash collections that exceed the billed and/or
expensed amount as unearned revenue instead of a negative receivable.
Recording a cash collection that exceeds the billed and/or expensed amount for a
reimbursable work order, not coded as cash upfront, as unearned revenue allows
                                     7
for timely postings of receivables. It also accounts for such erroneous entries as a
double posting of a cash collection as a liability, instead of a negative receivable.
DFAS must research each erroneous entry and correct the problem in order for the
entry to truly be accurate.

The comments on Recommendation A.2.b. from DFAS are not responsive. We
recognize that the Navy fund administrators were responsible for creating
negative accounts receivable balances by transferring expenses before they had
been incurred and, accordingly, addressed Recommendation A.1. to the
ASN(FM&C). DFAS is responsible for establishing controls in its systems that
will help the customer, the Navy, to comply with finance and accounting
requirements. This is consistent with the Department of Defense Directive
5118.5, “Subject: Defense Finance and Accounting Service,” as amended
December 13, 1991, Paragraph 4.
           4.1. The Director, Defense Finance and Accounting Service (DFAS),
           is the principal DoD executive for finance and accounting
           requirements, systems, and functions identified in DoD Directive
           5118.3 and shall: …4.1.3. Establish and enforce requirements,
           principles, standards, systems, procedures, and practices necessary to
           comply with finance and accounting statutory and regulatory
           requirements applicable to the Department of Defense.”

DFAS is responsible for ensuring that STARS has the proper system controls to
comply with finance and accounting statutory and regulatory requirements. We
request that DFAS Cleveland reconsider its position on adding system edit checks
that align with the business practices of the Navy (requested in Recommendation
A.1.) and provide additional comments in response to the final report.

A.3. We recommend that the Director, Defense Finance and Accounting
Service Charleston:

      a. Review all outstanding negative accounts receivable balances at the
segment level, determine the cause of those negative balances, correct the
balances, and refund overpayments in a timely manner. Notify Navy fund
administrators to correct the balances when applicable.

        b. Perform routine reviews of the subsidiary ledger and aged
accounts receivable listings to identify and correct negative balances and
initiate collection actions on aged receivables. Notify Navy fund
administrators to correct the balances when applicable.

       c. Establish a standard operating procedure to obtain outstanding
reimbursable work order documentation from a Navy field activity that is in
the process of closing.

Management Comments. The Director, DFAS Cleveland concurred with the
recommendation and indicated that all corrective actions were taken.




                                        8
           B. Cash Up-Front Reimbursable Work
              Order Segments with Negative
              Unearned Revenue Balances
           The DFAS Charleston July 31, 2001, unearned revenue balance included
           315 segment-level erroneous negative balances totaling $9 million. The
           negative $9 million reduced the net balance of unearned revenue to
           $3.1 million. The negative balances occurred because cash collections
           were not entered correctly in STARS-FL. As a result, the unearned
           revenue balances were not properly stated in the trial balances that DFAS
           Charleston submitted to DFAS Cleveland. The negative balances
           ultimately impacted liabilities on the Navy General Fund monthly
           departmental reports and year-end balance sheet.


Unearned Revenue in DFAS Charleston
    Net and Negative Balances. The unearned revenue net balance at DFAS
    Charleston as of July 31, 2001, was $3.1 million. We queried the STARS-FL
    system to obtain the detail of unearned revenue balances at the segment level.
    The detail revealed that out of 840 cash up-front RWO segments, 315 segments
    had erroneous negative balances totaling $9 million. Those negative balances
    reduced the net balance of unearned revenue to $3.1 million.

    Segments Selected for Review. We judgmentally selected four cash up-front
    RWO segments that had negative balances using the detail RWO reports from our
    queries. We provided our selections to DFAS Charleston accounting personnel
    and requested all available data relating to each selected item, including a copy of
    the RWO agreement and evidence of cash collected.
    STARS-FL Entries. The negative balances occurred because DFAS Charleston
    posted cash collections incorrectly in STARS-FL. When cash collections were
    entered incorrectly for a segment, the segment did not reflect the collection. After
    the expenses were entered, the unearned revenue balance was negative because
    expenses exceeded the cash collected for that segment. DFAS Charleston did not
    have procedures and controls in place to identify and correct negative unearned
    revenue balances for cash up-front segments. If DFAS Charleston had such
    controls, the negative balances could have been corrected in a timely manner.


Financial Impact
    As a result of the improper accounting practices, the unearned revenue balances
    were not properly stated in the trial balances that DFAS Charleston submitted to
    DFAS Cleveland. The negative balances ultimately impacted liabilities on the


                                         9
    Navy General Fund monthly departmental reports and year-end balance sheet.
    This brings into question the validity of the Navy data used for decision-making
    purposes.


Summary
    Improved procedures and controls would have helped DFAS Charleston identify
    and correct the negative balances discussed in this finding and would have
    improved the financial data at DFAS Charleston and ultimately on the Navy
    General Fund financial statements.


Recommendations, Management Comments, and Audit
  Response
    Deleted and Renumbered Recommendations. As a result of management
    comments and additional audit work, we deleted draft Recommendation B.1.
    DFAS Charleston claimed the responsibility to identify, research, and correct
    negative unearned revenue balances during a meeting after the draft report was
    issued. Draft Recommendations B.2.a. and B.2.b. have been renumbered as
    Recommendations B.1. and B.2., respectively.

    B. We recommend that the Director, Defense Finance and Accounting
    Service Charleston:

           1. Initiate a review of all outstanding negative unearned revenue
    segments. Determine the cause of those negative balances and correct the
    balances. Notify Navy fund administrators to correct the balances when
    applicable.

           2. Perform routine reviews of the unearned revenue detail reports to
    identify and correct negative balances. Notify Navy fund administrators to
    correct the balances when applicable.

    Management Comments. The Director, DFAS Cleveland, partially concurred
    with the recommendations, stating that DFAS would initiate a review, identify the
    negative unearned revenue balances, and notify Navy fund administrators of the
    erroneous posting. DFAS wants the fund administrator to initiate corrective
    actions. DFAS also agreed to conduct reviews on a monthly basis. DFAS stated
    that Navy fund administrators have the ultimate responsibility to ensure cash
    collections are deposited into the correct segments.

    Audit Response. The actions proposed by DFAS satisfied the intent of the
    recommendations.




                                        10
           C. Over Obligated and Expensed
              Reimbursable Work Order Segments
           RWOs were obligated and expensed beyond the funding authorized in the
           agreement. The over obligation occurred because there were no controls
           to prevent obligated and expensed amounts from exceeding funded
           authority in STARS-FL. As a result, DFAS Charleston submitted
           receivable balances that were not authorized or collectible to DFAS
           Cleveland. This ultimately overstated assets and income on the Navy
           General Fund monthly departmental reports and year-end financial
           statements.


Obligations and Expenses versus Funded Authority
    We judgmentally selected six RWO segments that had obligated and expensed
    amounts greater than the funded authority amount at the segment level, using the
    detail receivable lists from our queries. We found that STARS-FL did not have
    system controls to prevent an obligation and expense from exceeding the funded
    authority at the segment level. Improved internal controls would alert supervisors
    when an obligation or expense exceeds the funding authority. Improved internal
    controls would also require the fund administrator to obtain more funding
    authority from the grantor or absorb the unfunded expense in the performer’s
    operating budget.


Guidance for Obligating and Expensing Funds
    The Antideficiency Act (the Act) was codified in a number of sections of the
    United States Code. Section 1341(a), title 31, United States Code, (10 U.S.C.
    1341(a)) forbids any employee of the United States Government from obligating
    or expending funds that exceed the funding authorized in the appropriation. The
    over obligations and expenses discussed in this finding are not a direct violation
    of the Act because they are at the segment level, a much lower level than the
    appropriation level. However, over obligations and expenses at the segment level
    can lead to a violation of the Act when the combined total for segments in a
    particular appropriation exceed the funded authority. The recommendations in
    this finding will minimize Navy fund administrators from over obligating at the
    segment level and alert Navy management when over obligations occur.


Financial Impact
    RWO expenses were incurred that were not authorized. The segments had an
    outstanding receivable balance that had no funding authority from the grantor.
    Because the grantor did not provide funding authority for the additional expenses,

                                        11
    the receivable balance was not collectible. Those uncollectible receivable
    balances were included on the Navy General Fund financial statements, ultimately
    causing an overstatement to the receivable asset and corresponding income
    balances. This brings into question the validity of the data Navy managers use for
    decision-making purposes.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. As a result of management comments, we revised
    Recommendations C.1. and C.2. to clarify our position that the Navy holds the
    ultimate responsibility for ensuring that there is sufficient funding authority
    before creating any obligations.

    C.1. We recommend that the Assistant Secretary of the Navy (Financial
    Management and Comptroller) develop a methodology and provide guidance
    to prevent Navy fund administrators from over obligating at the segment
    level. Request system edit checks that will alert the next level supervisor
    when an obligation or expense exceeds the funding authority of the
    reimbursable work order segment.

    Management Comments. The ASN(FM&C) concurred in principle with the
    recommendation. The Navy commented that we did not provide the total
    universe of over obligated and expensed reimbursable work order segments by
    numeric quantity and dollar value. Moreover, they acknowledged their working
    group review of accounts receivable would also identify these kinds of issues.
    Once the review is completed, they will be better equipped to address negative
    accounts receivable balances.

    Audit Response. The comments from the ASN(FM&C) are not responsive. The
    Navy comment that we did not provide the total universe of over obligated and
    expensed reimbursable work order segments does not excuse them from
    responding to the problem identified in finding C. The fact that any over
    obligated segments exist is significant, and indicates an internal control problem
    that the Navy needs to research and correct. Over obligating beyond the funding
    authority at any dollar amount can lead to a violation of the Antideficiency Act.

    In addition, the over obligated segments identified in finding C do not yield
    negative account receivable balances, they yield normal debit balances that are
    not collectible because there is no funding authority. The accounts receivable
    review mentioned by the ASN(FM&C) will address negative accounts receivable
    balances but will not address over obligating at the segment level. Therefore, the
    Navy must perform a separate, more focused review of over obligated segments
    to correct the problem. We request that the ASN(FM&C) provide comments on
    the final report.




                                        12
C.2. We recommend that the Director, Defense Finance and Accounting
Service Cleveland coordinate with the Navy to establish system edit checks in
line with the updated Navy methodology and guidance regarding over
obligating and expensing at the segment level.

Management Comments. The Director, DFAS Cleveland nonconcurred with the
recommendation, stating that DFAS would assist the Navy in the development
and implementation of any new methodology that the Navy deemed necessary
regarding over obligations. However, DFAS stated that the ultimate
responsibility resides with the Navy to guarantee that obligations and expenses do
not exceed the funding authority.

Audit Response. The actions proposed by DFAS are responsive to the intent of
the recommendation.

C.3. We recommend that the Director, Defense Finance and Accounting
Service Charleston:

      a. Initiate a review of all over obligated and expensed segments to
determine the cause and correct the balances. Notify Navy fund
administrators to correct the balances when applicable.

       b. Perform routine reviews of the detail accounts receivable lists to
identify and correct over obligated and expensed reimbursable work order
segments. Notify Navy fund administrators to correct the balances when
applicable.

Management Comments. The Director, DFAS Cleveland, partially concurred
with the recommendations. DFAS Charleston will create a query in STARS to
provide the Navy fund administrators with a monthly listing of all over obligated
and expensed reimbursable work orders. Navy fund administrators are
responsible for reviewing and correcting the errors. When any uncorrected over
obligated and expensed reimbursable work order balance is more than 30 days
old, DFAS will provide a formal letter to the Navy fund administrator and the
major claimant notifying them that corrective action needs to be taken.

Audit Response. The actions proposed by DFAS are responsive to the intent of
the recommendations.




                                    13
Appendix A. Scope and Methodology
   The overall audit objective was to determine the reliability and effectiveness of
   processes and procedures used to prepare Navy General Fund financial
   statements. Specifically, we performed the audit at field accounting site DFAS
   Charleston, which included interviews with fund administrators at Navy activities
   for further explanations.

   We reviewed the processes and procedures of the STARS-FL accounting system
   for reimbursable work orders at DFAS Charleston. We queried the STARS-FL
   database at the summary level for all RWOs to obtain the trial balance data that
   are submitted to DFAS Cleveland. In addition, we queried STARS-FL for the
   detail lists of each RWO for which DFAS Charleston had prepared monthly trial
   balances. As of July 31, 2001, there were 5,401 RWO segments with a receivable
   balance of $85.4 million, to include 706 negative segment balances totaling
   $73.4 million. The unearned revenue balance that resulted from the
   840 reimbursable cash up-front segments included 315 segment-level erroneous
   negative balances totaling $9 million. The negative $9 million reduced the net
   balance of unearned revenue to $3.1 million. We judgmentally selected 34 RWOs
   to review. The review consisted of 24 negative receivable segments, 6 over
   obligated receivable segments, and 4 cash up-front segments.

   We performed this audit from June 2001 through November 2002, in accordance
   with generally accepted government auditing standards. We included tests of
   management controls considered necessary. We suspended the audit from
   November 2002 to May 2003 because of higher priority work. Some
   management comments on the draft report were not responsive so we request
   additional comments from management. Other management comments indicated
   completion dates that have passed so we will confirm that actions have been
   completed as part of the follow-up process. We revised recommendations in this
   report based on management comments on the draft report and discussions with
   management.

   Use of Computer-Processed Data. We relied on computer-processed data in
   STARS-FL to identify the RWO summary and detail receivable and cash up-front
   data. Although we did not perform a reliability assessment of the
   computer-processed data, we did not find errors that would preclude the use of the
   computer-processed data to meet the audit objectives, or that would change the
   conclusions in this report.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in the DoD. This report provides coverage
   of the Defense Financial Management high-risk area.




                                       14
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We evaluated
    management controls over the DFAS Charleston processes and procedures for
    preparing monthly trial balances to be interfaced with DFAS Cleveland for
    departmental reporting. Specifically, we reviewed DFAS Charleston
    management controls over maintaining reimbursable work orders in the STARS-
    FL accounting system to include necessary system edit checks and accuracy of
    preparing monthly reimbursable trial balances at the field level. Management did
    not perform any self-evaluations applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses at DFAS Charleston, as defined by DoD Instruction 5010.40.
    STARS-FL did not have adequate controls at the segment level to prevent
    negative receivable trial balances, negative unearned revenue trial balances, and
    over obligations. Recommendations A.1.a, A.1.b, A.2.a, A.2.b, C.1., and C.2., if
    implemented, will prevent negative receivable balances; negative unearned
    income balances, and over obligations of RWO segments from occurring in
    STARS-FL. Recommendations A.3.a, A.3.b, B.1, B.2, C.3.a, and C.3.b, if
    implemented, will correct existing negative receivable balances, negative
    unearned income balances, and over obligations of RWO segments in STARS-FL.
    A copy of the report will be provided to the senior official responsible for
    management controls at DFAS Cleveland, DFAS Charleston, and the Navy.

    Adequacy of Management’s Self-Evaluation. Management at DFAS
    Charleston did identify STARS-FL as an assessable unit but did not perform an
    evaluation. Management did not complete the schedule in the management
    control plan.


Prior Coverage
    The General Accounting Office, the Office of the Inspector General of the
    Department of Defense (IG DoD), and the Naval Audit Service have conducted
    multiple reviews related to financial statement issues. General Accounting Office
    reports can be accessed on the Internet at http://www.gao.gov. IG DoD reports
    can be accessed on the Internet at http://www.dodig.osd.mil/audit/reports. Naval
    Audit Service reports can be accessed on the Internet at
    http://www.hq.navy.mil/navalaudit.




                                       15
Appendix B. Illustration of a Transfer of
            Expenses Between Segments
    This appendix provides an illustration of the transfer of expenses between
    segments, which caused negative receivables as discussed in finding A. The
    process used by Navy fund administrators was to establish a single segment to
    track expenses for individual purchases funded by many grantors. In this
    illustration, a Navy fund administrator purchased telephone service for
    100 grantors, each with their own RWO. The RSC identified each RWO as a
    receivable. The Navy fund administrator established one additional unfunded
    segment to capture the expenses for the purchase of the telephone service. Some
    of the grantors paid for the telephone service in advance, but because the
    expenses were not yet incurred, the grantor segments reflected a negative
    receivable balance, rather than unearned revenue. To eliminate the negative
    receivable balances, the Navy fund administrator transferred the expenses from
    the unfunded segment to the grantor RWO segments. The following three steps
    illustrate the accounting entries made by DFAS Charleston and the Navy fund
    administrator for two of the grantors that paid in advance, and the effect those
    entries had on the receivable balance of each segment. The steps correlate to the
    numbers in Table 3.

       1. Grantors Paid in Advance. During the month, one grantor paid $100
          and another grantor paid $200 for telephone services. DFAS Charleston
          received the payments for the performer and entered the cash collection in
          STARS-FL. The cash collections posted to the grantor segments in
          STARS-FL. As indicated in Table 3, the receivable balances from
          “Grantor One” and “Grantor Two” are negative $100 and $200
          respectively. The receivable balances were negative because DFAS
          Charleston had not received the bill from the telephone service provider;
          therefore, no expenses were posted to either of the grantor segments.

       2. Navy Fund Administrator Transferred Expenses. At the end of the
          month, the Navy fund administrator queried STARS-FL to determine
          which grantors paid during the month. In this example, the Navy fund
          administrator determined that two grantors had paid during the month.
          The Navy fund administrator transferred expenses totaling $300 from the
          unfunded segment, $100 to grantor one and $200 to grantor two, because
          the grantor payments caused a negative receivable balance in their
          respective segments. As indicated in Table 3, the transferred expenses
          caused grantor one and grantor two segments to have a zero receivable
          balance. The transferred expenses also caused the unfunded segment
          expensed amount to be negative $300, because the expenses had not yet
          been incurred.

       3. Expenses Were Incurred. The telephone service provider sent DFAS
          Charleston the monthly telephone bill of $200 for telephone service
          related to the 100 grantors. DFAS Charleston entered the bill in STARS-
          FL to the unfunded segment. At this point, the telephone expenses for the
          month were incurred. As indicated in Table 3, the $200 bill netted against

                                        16
               the existing negative $300 expense balance resulted in negative
               $100 expensed and receivable balances. This transaction did not affect
               grantor one or grantor two segments.

                       Table 3. Transfer of Expenses Between Segments
        Unfunded Segment             Grantor One Segment             Grantor Two Segment
  Expensed Collected Receivable Expensed Collected Receivable Expensed Collected Receivable
1         -         -         -         -      100        (100)        0        200      (200)

2      (300)        -                100          -                  200          -
       (300)        -     (300)      100        100          -       200        200          -

3        200        -                  -          -                    -          -
       (100)        -     (100)      100        100          -       200        200          -

The process described above resulted in a negative receivable balance for the unfunded
segment when the grantors paid in advance.




                                           17
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/ Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          18
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        19
Assistant Secretary of the Navy (Financial
Management and Comptroller) Comments




                       21
22
     Final Report
      Reference




     Revised
     Page 12




23
Defense Finance and Accounting Service
Comments




                      24
     Final Report
      Reference




     Revised
     Page 7




     Revised
     Page 4




25
Final Report
 Reference




Deleted




               26
     Final Report
      Reference




     Renumbered
     as Recom-
     mendation
     B.1.
     Revised
     Page 9



     Renumbered
     as Recom-
     mendation
     B.2.




     Revised
     Page 13




27
28
Team Members
The Defense Financial Auditing Service Directorate, Office of the Deputy
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Raymond D. Kidd
Linda A. Pierce
David J. Ramseyer
